No.

IN THE
SUPREME COURT OF THE UNITED STATES

In re CYRUS LINTON BROOKS,
Petitioner,
-vsRANDALL R. HEPP,
Respondent.

DECLARATION OF SERVICE

I, Mr. Cyrus Liton Brooks [DOC No. 356756-A], the Named [Pro
Se] Prisoner Petitioner in this Petition For Writ Of Mandamus act­
ion. Declare under 28 U.S.C. §1746 that the following is true and
correct:
1.]

That on January

\Q , 2021, I placed the following list­

ed Legal Documents in the United States Mail, via placement of the
Pleading and Required Procedural Support Documents, with the Fox
Lake Correctional Institution, Post Office Box 200, Fox Lake;
Wisconsin. 53933. Housing Unit Mail Staff, for their attachment
of the correct Amount of 1st Class U.S. Mail Postage thereto, pro­
cessing in accordance to the Fox Lake Prison Facility Out-Going
Legal Mail Policies, and forwarding to the Local Postal Services
without undue delay. Of this Legal Material addressed to the
Wisconsin State Attorney General, Josh Kaul, located at the Wis­
consin State Department Of Justice, 17 West Main Street/Post Office
Box 7857, Madison; Wisconsin. 53707-7857.

[13

2.]

The enclosed legal Document[s] of this [Service] Mailing

are as follow[s]:
a.
Petitioner Gyrus L. Brooks, Pro Se "Motion For NuncPro-Tune [Now For Then] Extension Of Initial-Keturn Letter Filing
Time For Corrected Pleading Needs By May 10, 2020, For The ReSubmission Of The Supreme Court Rule 20(1) Petition For An ExtraOrdinary Writ that was Returned To [Prisoner] On March 11, 2020.
During Which [Prisoner] Suffered The Denial Of Access To A Law
Library/Counsel Via Inmate-To-Inmate Legal Assistance For The Next
Six(6) Months, In State Prison Officials Address To Coronavirus
[Covid-19] Pandemic Outbreak In State Prison System, Inclusive Of
Fox Lake Correctional Institution (Mailed On October 26, 2020).
b.
Petitioner Cyrus L. Brooks, Pro Se, "Declaration Of
Indigency," Using the Form Supplied by the UnitecT States Supreme
Court, Clerk Of Courts Office, Deputy Clerk Ms. Susan Frimpong,
sent on March 11, 2020 (Mailed On October 26, 2020).
Petitioner Cyrus L. Brooks, [March 02, 2020] Cover-Letter
c.
to the Clerk Of Courts Office of the United States Supreme Court,
Regarding the Initial Supreme Court Rule #20(1) "Petition For A
Extraordinary [Supervisory] Writ With Appendix A-Q Materials (#45Pages and #62-Pages Respectively). Which Copy was mailed to the
Wisconsin State Department Of Justice, Criminal Appeals Unit, Post
Office Box 7857, Madison; Wisconsin. 53707-7857. Further Listing the
Accompanying Procedural Pleadings of Cover-Letter Listing of Para­
graph C; Certificate Of Compliance Of Supreme Court Rule 33.1(h)
Intent Fulfillment and Paragraph D: Motion For Leave To Proceed Be­
fore The United States Supreme Court, In Forma Pauperis (Mailed On
October 26, 2020).
d.
Petitioner Cyrus L. Brooks, Declaration Of [Instead],
Next Friend Mailing Placement Of Rule 20(1) Petition For A ExtraOrdinary Writ, and Related Materials of Cover-Letter Listing as
A-E, With The Prison Facility Mail Official(s)mfor Mail-Box Filing
Date entitlement consideration; On March 02, 2020 (Mailed On October
26, 2020).
e.
October 26, 2020 Cover-Letter to the United States Clerk
Of Courts Office, Care Of Clerk Susan Frimpong, Concerning Re-Filing
of Initial Submitted Materials Of March 02, 2020 Filing Execution to
the United States Supreme Court, as Well Return Letter Thereon From
The Deputy Clerk. Including The Supplemental Materials Of Deputy
Clerk Susan Frimpong*s March 11, 2020 Return Letter Mandated In­
clusion (Mailed On October 26, 2020).

f.
January iq , 2021 Cover-Letter To The United States
Supreme Court, Clerk Of Courts Office, Care Of Deputy Clerk Susan
Frimpong. Regarding 2nd Return Of November 11, 2020 By Said For
Further Needed Amendment Of Rule 20(1) Petition Pleading, Inclusive
Of Petition Cover-Page, Pages [x-xxx], setting forth the Amendments
So Requested By The Clerk Of Court, Regarding Type Of Relief Sought.
g.
January AO , 2021 "Declaration Of Mail Placement" Of Rule
20(1) Petition For Writ Of Mandamus (#48-Pages, 39-Pages Of Count
Application).

[2]

h.
January ip , 2021 ’’Declaration Of Mail Placement” Of Rule
20(1) Petition For writ Of Mandamus, Appendix Materials (#62-Pages).
i.
January \t> , 2021 ’’Declaration Of Mail Placement of [Pro
Se] Petitioners' Declaration Of Amendment Execution To Petition For
Wit Of Mandamus On The Seventh Circuit Court Of Appeals” As Mandated
By United States Supreme Court, Clerk Of Courts Office, Deputy Clerk
Ms. Susan Frimpong, of March 11, 2020 (Initial) and November 10, 2020
(2nd) Return Letter(s) Of Pleading(s) Sought Filed By Prisoner.
j.
January \Q , 2021 ’’Declaration [Certification] Of Compli­
ance Of Supreme Court Rule 33.1(h) Intent Fulfillment.
k.
Motion For Leave To Proceed Before The Supreme Court Of
The United States, In Forma Pauperis Service (Mailed On October 26.
2020).
.
------------------------------- *“
Hereby, Petitioner Cyrus Linton Brooks [DOC #356756-A], Pro Se,
Does Declare under Penalty of Perjury that the foregoing is true and
correct to the best of Prisoner [Petitioner] here personal knowledge
at the time of its placement with Fox Lake Correctional Institution
Staff for attachment of the correct amount of 1st Class U.S. Mail
Postage hereto, and forwarding to the local postal services, without
undue delay.
Signed This

, day of January, 2021. Fox Lake; Wisconsin.

CLB/OBM-File.
Enclosure(s).

Declarant:
Mr
Brooks
Pro Se
Fox Lake Correctional Institution
Post Office Box 200 / F.L.C.I.
Fox Lake; Wisconsin.
53933

xc:

Mr. Josh Kaul, Attorney General
State Department Of Justice
Post Office Box 7857 / S.D.O.J.
Madison;
Wisconsin. 53707-7857

[3]

No.

IN THE
SUPREME COURT OF THE UNITED STATES

In re CYRUS LINTON BROOKS,
Petitioner,
-vsRANDALL R. HEPP,
Respondent.

DECLARATION OF MAIL PLACEMENT

I, Cyrus Linton Brooks [DOC #356756-A], the Pro Se Fox Lake
Correctional Institution [Prisoner] in this Legal Pleading(s)
Filing. Does [Declare] under 28 U.S.C. §1746 that the following
Is true and Correct:
1.)

On January

\q

, 2021, Petitioner Cyrus Linton Brooks,

the Pro Se [Petitioner] in this Petition For Extraordinary Remedy
Relief litigation, located at the Fox Lake Correctional Institu­
tion, Post Office Box 200, Fox Lake; Wisconsin. 53933. Placed
with the Prison Mail Handling Official(s), the Material so listed
in the Cover-Letter to the Clerk Of Courts Office, Dated on todays
date.
2.)

On January

iQ , 2021, Petitioner Via the execution of

a DOG-184 ’’Legal Mail Postage" Disbursement Request purchased the
correct amount of First Class U.S. Mail Postage for the Mailing of
the Petition For Writ Of Mandamus, Appendix Material To The Petition
and Supporting Procedural Pleading(s) required therewith, that will
1.

be applied by the Fox Lake Correctional Institution [Mailroom]
Staff in accordance with the DOC Policy And Procedure Requirement
therefore.
3.)

This Manila Legal Envelope containing the Final Amended

Supreme Court Rule 20 Pleading(s), as mandated by Deputy Clerk,
Susan Frimpong in her November 10, 2020 [Return] Letter instruction,
are being sent to the United States Supreme Court, Clerk Of Courts
Office [^Deputy Clerk, Susan Frimpong], 1 First Street, N.E.,
Washington; District Of Columbia. 20543.
Hereby, I Cyrus Linton Brooks [DOC #356756-A], Pro Se [Prisoner],
Petitioner in this litigation pursuit, does declare under penalty of
perjury that the foregoing is true and correct to the best of my
Knowledge and Personal Involvement herewith.
Signed this

;c>

day of January, 2021. Fox Lake; Wisconsin.

CLB/OBM-File.
Enclosure(s).

Declarant:
joUvOO^Cl

Cyr^fs Linton Brooks, Pro Se.
[#356756-A] In Forma Pauperis
Fox Lake Correctional Inst/FLCI.
Post Office Box 200 / Unit-#
Fox Lake;

xc:

Josh Kaul, Attorney General
State Department Of Justice
Post Office Box 7857 / SDOJ
Wisconsin. 53707
Madison;

2.

Wisconsin.

53933

f’v

ii
Mo.

IN THE
SUPREME COURT OF THE UNITED STATES

In re CYRUS LINTON BROOKS,
Petitioner,
-vsRANDALL R. HEPP,
Defendant.

DECLARATION OF MAIL PLACEMENT

I, Farly Earl [DOC #369129-A], Declare under 28 U.S.C. §1746
that the following is true and correct:
1.]

That on March 02, 2020, on (behalf) of Prisoner Cyrus

Linton Brooks [DOC: #356756-A], Pro Se Petitioner in this Supreme
Court Rule 20 Action, I placed the here listed Legal Materials of
the Cover-Letter Documentation, with the Columbia Correctional
Institution, Housing Unit-#01, 2nd Shift Staff for immediate mail­
ing, the following;
a.]

Supreme Court Rule 20, Petition For An Extra-

Ordinary [Supervisory] Writ, Pursuant to §1651(a) Procedural aut­
hority of the United States Supreme Court. Petition is 39-Pages in
Length, With a Cover-Pages and Five(5) Pages Uncounted Procedural
Materials thereto.
b.]

Appendix Materials A-Q, To Supreme Court Rule 20

Petition For Extraordinary Writ Pleading, Appendix Materials are
-1_ . 1 v-

62-Pages Total Materials Attachments thereto.
c.]

Certificate Of Compliance Of Supreme Court Rule

33.1(h) Intent Requirement is #01-Page in Length,
d. ] Motion For Leave To Proceed Before The United
States Supreme Court, In Forma Pauperis is #01-Page in Length.
e. ] United States Supreme Court, Clerk Of Courts Office
Cover-Letter Submission, Is #02-Pages In Total Length.
2.]

With the Filing Deadline of Ninty(90) Days from the

December 03, 2019 Filing/Deadline For This Petition To The United
States Supreme Court is March 02, 2020, Which thereon, Mail-Box
Placement, Filing Allowance is!Requested, for This Pro Se Prisoner
[Next Friend] executed Petition Drafting, and Mailing Needs hereby
Declarant, Farly Earl, of March 02, 2020 Prison Officials Placement
for Mailing in accordance with Columbia Correctional Institution,
Internal Legal Mail Processing Procedures and Postage Application/
Purchase Rules.
3.]

Prisoner Does Have the DOC-184 Inmate Legal Mail Postage

Purchase and Date Of Purchase Submission Documentation/Receipt for
this S.Ct. Rule 20 Petition Mailing, Available For Submission In
Any Filing Deadline Placement Dispute That May Arise Thereto.
Dated this

day of March, 2020. Portage; Wisconsin.

CLB-OBM-FE/File.
Enclosure(s):
[# 113-Pages Of Rule #20
Petition Related Material].

Sworn To Byi
Farly Ear
#369129-A
Columbia Correctional Institution
Post Office Box 900 / CCI-Unit-#l.
Portage;
Wisconsin.
53901-0900

xc: Criminal Appeals Unit.
State Department Of Justice
Post Office Box 7857 / S.D.O.J.
Madison;
Wisconsin. 53707-7857

-2-

